HHS/OIG, Audit - "Review of Medicare Payments for Incarcerated Beneficiaries in the State of Ohio," (A-05-02-00028)
Department
of Health and Human Services
"Review of Medicare Payments for Incarcerated Beneficiaries in the State
of Ohio,"
(A-05-02-00028)
August 16, 2002
Complete Text of Report is available in PDF format
(273 kb). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review was to determine whether Medicare
fee-for-service claims paid in Ohio during the 3-year period of January 1, 1997
through December 31, 1999 were in compliance with federal regulations and Centers
for Medicare and Medicaid Services guidelines.  Ohio was 1 of 10 States
selected for review.   We reviewed a randomly selected statistical
sample of 100 claims.  We found that all 100 sample claims were appropriate.
The sample included 92 claims for beneficiaries in psychiatric hospitals operated
by the Ohio Department of Mental Health.  We determined that these beneficiaries
did qualify for Medicare coverage because under State law, the beneficiaries
were responsible for repayment of medical costs and the State did pursue collection.
The final eight claims in our sample were also allowable because the beneficiaries
were not incarcerated on the day of the medical service.